HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services at Holy Cross Hospital, Silver Spring, Maryland,"(A-03-03-00007)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services at Holy Cross Hospital, Silver Spring, Maryland," (A-03-03-00007)
November 20, 2003
Complete
Text of Report is available in PDF format (741 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Holy Cross Hospital (Holy Cross) for
outpatient cardiac rehabilitation services.  Holy Cross met Medicares requirements for (1) direct physician supervision
and (2) providing incident to services.  Specifically, Holy Cross contracted with two physicians to directly supervise
the services provided by its cardiac rehabilitation program.. The physicians responsibilities included the daily supervision
of the cardiac center, patients initial physical assessment, approval of cardiac rehabilitation treatment plans, and observation
of patients daily progress.  One of the physicians was always in the exercise area during regularly scheduled exercise
sessions.  In addition, from our specific claims review for a sample of 30 beneficiaries who received outpatient cardiac
rehabilitation services during Calendar Year 2001, we determined that Holy Cross received Medicare payments of $7,470 for
services where the diagnoses used to establish the patients eligibility for cardiac rehabilitation may not have been supported
and for services not otherwise allowable.